<html>
<title> - CSI WASHINGTON: DOES THE DISTRICT NEED ITS OWN CRIME LAB?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
       CSI WASHINGTON: DOES THE DISTRICT NEED ITS OWN CRIME LAB?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2006

                               __________

                           Serial No. 109-184

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-327                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                         Benjamin Chance, Clerk
                         Michael Galindo, Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2006...............................     1
Statement of:
    Wainstein, Ken, U.S. attorney, District of Columbia; Joseph 
      A. DiZinno, D.D.S., Director, Federal Bureau of 
      Investigation Laboratory, Federal Bureau of Investigation; 
      Charles H. Ramsey, chief of police, Metropolitan Police 
      Department; Edward D. Reiskin, D.C. deputy mayor for public 
      safety and justice; and Valencia Mohammed, District of 
      Columbia resident..........................................    11
        DiZinno, Joseph A........................................    18
        Mohammed, Valencia.......................................    41
        Ramsey, Charles H........................................    25
        Reiskin, Edward D........................................    32
        Wainstein, Ken...........................................    11
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    62
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    DiZinno, Joseph A., D.D.S., Director, Federal Bureau of 
      Investigation Laboratory, Federal Bureau of Investigation, 
      prepared statement of......................................    20
    Mohammed, Valencia, District of Columbia resident, prepared 
      statement of...............................................    44
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     8
    Ramsey, Charles H., chief of police, Metropolitan Police 
      Department, prepared statement of..........................    28
    Reiskin, Edward D., D.C. deputy mayor for public safety and 
      justice, prepared statement of.............................    35
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........    64
    Wainstein, Ken, U.S. attorney, District of Columbia, prepared 
      statement of...............................................    14


       CSI WASHINGTON: DOES THE DISTRICT NEED ITS OWN CRIME LAB?

                              ----------                              


                       FRIDAY, SEPTEMBER 22, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis, Cummings, and Norton.
    Staff present: David Marin, staff director; Larry Halloran, 
deputy staff director; Keith Ausbrook, chief counsel; Anne 
Marie Turner and Steve Castor, counsels; Victoria Proctor, 
senior professional staff member; Michael Galindo and Benjamin 
Chance, clerks; Michael Sazonov, research assistant; Brian 
McNicoll, communicatiions director; Kim Trinca, minority 
counsel; Earley Green, minority chief clerk; and Jean Gosa, 
minority assistant clerk.
    Chairman Tom Davis. Good morning and welcome. Today's 
hearing will consider the creation of a full service forensics 
lab in the District of Columbia. Today the District of Columbia 
relies on the Federal Bureau of Investigation's crime lab to 
handle all of its forensic capabilities with the exception of 
fingerprints and firearms. The sharing of resources by the 
Metropolitan Police Department and the FBI has shown both 
progress and promise. But over time technological developments 
in DNA testing, new and old case needs and shifting priorities 
caused by terrorism and homeland security concerns have 
strained the ability to satisfy the interests of all parties. 
The relationship between MPD and the FBI has been strong and 
beneficial, but perhaps the time has come for D.C. to have its 
own forensic resources. According to the Metropolitan Police 
Department Web site as of September 21st, the total number of 
murders for this year is 124. Since January of this year, 
homicides are down 11 percent due in large part to the crime 
emergency declared 73 days ago, but violent crime is up 4 
percent with the increase mostly in robberies and sexual 
assaults. In fact, it's my understanding that if a woman is 
raped in D.C. and there is no suspect, the MPD will complete a 
rape kit but will not perform DNA testing on the evidence 
collected from the kit. Additionally, there's no data base in 
which to handle the DNA collected which other jurisdictions 
have found instrumental in solving crimes, in identifying 
serial murders and rapists. As a father of two daughters, I 
find this alarming. If D.C. had the resources for such a data 
base, would MPD have been able to find the killer of Valencia 
Mohammed's son? Ms. Mohammed is here today to talk about her 
personal experience as a mother of two sons who were killed by 
gun violence in D.C. and to give us her perspective of the need 
for a D.C. crime lab.
    In 2003, the FBI crime lab moved from FBI headquarters in 
downtown Washington to Quantico, VA, out in my area, where it 
currently provides forensic services free of charge for the 
FBI, including terrorism and counterintelligence cases; any 
duly constituted law enforcement agency in the United States 
and even international cases. FBI Laboratory personnel provide 
forensic examinations, technical support, expert witness 
testimony and training to Federal, State and local law 
enforcement agencies. FBI lab officials estimate that 30 
percent of their overall caseload is from D.C. To help ease 
this burden on the FBI lab, MPD and FBI signed a memorandum of 
understanding in 2004. The MOU permits MPD employees to work in 
the FBI lab and test evidence from D.C. cases. The FBI provides 
those MPD employees with training, laboratory space, equipment, 
quality assurance measurements and supplies. So far the results 
of the memorandum of understanding are promising. It helps 
relieve the burden on the FBI caseload caused by D.C. cases, 
specifically in DNA testing. Turnaround time for non-D.C. cases 
has been reduced slightly. The process time for trace evidence 
has been reduced by half for non-D.C. cases. The results 
suggest that if D.C. had its own full service crime lab for 
processing DNA and trace evidence, both D.C. and FBI evidence 
would be processed faster. If the District does get its own 
lab, the unit handling MPD cases may be able to relocate to the 
new D.C. lab.
    Thus far, $11.5 million has been approved by the D.C. 
Council for architectural and engineering designs for a new DNA 
lab. The new lab would include forensic and DNA testing 
functions, the city morgue and the Department of Health. In 
addition, the facility would also include a biosafety 
laboratory to address homeland security threats. The final 
estimated price tag for the facility is $253 million. Over the 
next 4 years, that's almost $175,000 a day.
    In fiscal years 2005 and 2006 Congress appropriated $13 
million for bioterrorism and a forensics lab in D.C. Slated to 
open in 2010, city leaders are hoping the Federal Government 
will take on 37 percent of the total cost while leaving the 
District with the remaining 63 percent.
    It must be difficult for a detective to tell a family 
member whose loved one was just murdered that we have no leads, 
no suspects and no evidence. But it's undoubtedly a dismal 
affair for that same directive to tell a family, we'll have to 
wait. We have all the evidence, we might have a suspect but we 
just have to wait for evidence testing. If the District had its 
own full service forensics lab, would these conversations still 
occur? Would the crime statistics in D.C. go down? Would there 
be a reduction in the number of cold cases?
    Today's hearing will help determine the need, the means, 
and the way to hopefully turn a cold case into a case closed.
    I would now recognize the member from the District of 
Columbia, Ms. Norton, for her opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0327.001
    
    [GRAPHIC] [TIFF OMITTED] T0327.002
    
    Ms. Norton. Thank you very much, Chairman Davis. I suspect 
that Chairman Davis always selects these eye-catching names for 
his hearings to create an impression that he is not having 
another boring congressional hearing, hence today's hearing 
entitled, ``CSI Washington: Does D.C. Need Its Own Crime Lab?'' 
Unlike CSI Miami or New York, all those other CSI cities, I 
believe that this morning's hearing concerning the seldom 
discussed but vital anti-crime forensic tool will show that the 
question is rhetorical. Seriously, Chairman Davis knows that 
I've been looking forward to this hearing in particular, which 
I requested to be held this session, and he has my personal 
gratitude for calling this hearing today.
    The District declared a crime emergency shortly after 
experiencing a crime spike this summer as crime began to 
significantly increase nationwide. Although there never are any 
quick fixes to achieve an immediate reduction in crime, Mayor 
Williams and the City Council acted quickly to use several 
tools at hand, including increased funds for police overtime. I 
commend the city for apparently quelling the increase in 
violent crime before it got out of hand.
    Reducing local crime is always a local issue in our 
country, and here is also a home rule issue as well. However, 
there are natural and appropriate synergies between local and 
Federal police work, and they were apparent long before the 
advent of terrorism made these connections impossible to 
ignore.
    In 1992, Congress passed Public Law 102-397, a bill I 
sponsored to permit the Capitol Police to patrol the 
neighborhoods near the Capitol to stave off crime before it 
makes its way here. The bill represented a new departure. By 
permitting the Capitol Police to patrol outside the grounds and 
the first few blocks around the Capitol, the legislation 
provides for greater utilization of the well-trained police 
force that protects Members of Congress and visitors by 
assuring they are not victims of crime from surrounding 
neighborhoods as they visit or leave the congressional campus. 
Simultaneously, sections of the Capitol Hill community where 
crime is typically higher than in similar neighborhoods also 
received some protection in addition to the hard-pressed 
Metropolitan Police Department officers who must also take 
calls from throughout the neighborhood.
    What I learned from the Capitol Police bill led me to do 
the same in order to improve utilization of Federal police 
officers around Federal facilities, I discovered that there 
were 30 Federal law enforcement agencies here, Federal 
enforcement agencies here attached to Federal agencies, with 
authority to carry weapons and make arrests but unable to 
perform typical police duties. Even traffic control in the 
areas surrounding their immediate locations were necessary. 
Federal agency police often called MPD or even 911 to report 
crimes or to handle traffic accidents that occurred just 
outside their Federal agency.
    Federal police officers who made an occasional arrest 
merely handed over the suspects to the MPD and did not even do 
the paperwork, leaving the beleaguered MPD with hours of 
processing that kept officers off our high-crime neighborhood 
streets. As a result, I wrote the D.C. Police Coordination Act, 
patterned on my earlier bill to expand Capitol Police 
jurisdiction. The larger police coordination legislation allows 
Federal agency police officers to assist MPD in crime 
prevention and law enforcement activities in the District. By 
patrolling areas surrounding their respective agencies, sharing 
and donating equipment and supplies, sharing radio frequencies 
and streamlining the processing of suspects. Policing by these 
Federal officers does not involve going outside their Federal 
mandate because crime prevention from the neighborhoods 
surrounding the agency simultaneously serves both the Federal 
Government and the District of Columbia.
    I had these experiences in mind when I asked the Capitol 
Police Board and the Capitol Police to temporarily assist the 
Park Police, although both are Federal police, after five 
muggings and assaults on the National Mall this summer. I 
believe that this assistance was a natural extension of the 
Capitol Police mission to protect Members of Congress and 
visitors to the Capitol. I was particularly concerned when the 
underfunded Park Police, which unlike the Capitol Police had 
not grown, were meeting Park Police needs after the Mall 
assaults by barring Park Police from Federal parks in the 
District, Maryland and Virginia that are more dangerous than 
the Mall. It made little sense to protect the Mall at the 
expense of parks like Anacostia Park and Rock Creek Park. I 
very much appreciate the decision of the Capitol Police Board 
to allow this temporary assistance. I congratulate the Park 
Police and all who assisted them for quickly cracking the Mall 
cases. All of the perpetrators have pled guilty and are 
incarcerated.
    These experiences suggest that further analysis would 
reveal similar cooperation between Federal and D.C. crime 
efforts can be found. As to police, the District of Columbia 
has more Federal and local police combined per capita than any 
jurisdiction in the United States. The Nation's Capital is 
saturated with Federal and local police, but historically has 
had one of the highest crime rates in the United States. I 
should have thought that would have gotten everybody to think 
whether or not more police was the answer to our problems, if I 
may say so.
    Our focus on the crime lab today is about the closest 
connection between Federal and D.C. crime-fighting efforts. I'm 
enormously grateful to the Federal Bureau of Investigation to 
allow the District to use its forensics crime lab at Quantico, 
VA and particularly for the 2004 agreement that increases this 
cooperation by permitting the Metropolitan Police Department to 
perform some of the work at the lab. Today's witnesses will 
testify concerning the benefits and sacrifices to both 
agencies.
    I must say, however, that my concern to help the District 
quickly get its own crime lab is deeper than the need for 
bricks, mortar and expertise. A forensic lab of one's own for a 
city with a chronically high crime rate is a no-brainer. This 
year I've been able to get $4.5 million to assist the District 
now pending in the Appropriation Committee and last year got 
almost $5 million in Federal funds to assist the District. And 
that's not the first Federal funds that the District has gotten 
for this effort.
    I'm also, however, fascinated by the riddle of it all, and 
my hypothesis that the forensic lab may be the key to further 
reduction in final crime and violent crime in the District. And 
I cannot put aside the crack epidemic of the early 1990's when 
the homicide rate here was over 400--400 annually. These crime 
highs were reflected throughout the entire country, but D.C.'s 
crime rate topped that of most similar cities. Most disturbing 
was the fact that when crime began to go down in virtually 
every other big city, it remained high, very high here for 
years, not months, but years longer. Moreover, the District's 
crime rate has been among the highest in the country for 
decades. The city's response typically has been to add more 
officers. And consequently, we have long had the highest number 
of local police per capita in the country.
    Other typical recommendations include more community 
policing and more police out of their cars, out of their 
offices and on patrol. However, I must wonder whether better 
crime fighting and prevention results in other cities are all a 
matter of better policing. I doubt it. I'm interested in the 
role that inadequate forensics in the past and delays in 
getting to forensic evidence today may play in D.C.'s 
persistently high crime rate.
    When a vital anti-crime tool is inadequate or delayed for 
decades, is there a significant effect on deterrence and 
prevention? I do not know whether the effect of quick and 
expert forensics on crime rates or convictions has been 
investigated. However, I refuse to believe that the District of 
Columbia is inherently a city with a greater propensity to 
violent crime than New York, Chicago, Los Angeles, and other 
big cities. We have never found a satisfactory explanation for 
the District's persistently high rate of violent crime, and I 
don't believe we have ever looked beyond the surface. A new 
forensic lab is certain not to be yet another quick fix. 
However, today's hearing will help clarify how improved 
forensics can help in the search for answers that must be found 
to this city's persistently high violent crime rate.
    I am particularly grateful to today's witnesses for their 
work in crime prevention in the District of Columbia, and very 
much look forward to their testimony. I particularly welcome my 
good friend Valencia Mohammed, who has not only suffered 
directly from the absence of a crime lab and outstanding 
forensics here, but also has helped educate and raise 
consciousness among residents about the importance of forensics 
to crime prevention.
    Thank you very much.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T0327.003

[GRAPHIC] [TIFF OMITTED] T0327.004

[GRAPHIC] [TIFF OMITTED] T0327.005

    Chairman Tom Davis. Ms. Norton, thank you very much too. 
Members will have 7 days to submit opening statements for the 
record.
    Before we recognize our very distinguished panel, I want to 
congratulate Mr. Wainstein on his recent confirmation as the 
assistant U.S. attorney for the National Security Division and 
Dr. DiZinno on his promotion to the Director of the FBI 
Investigation Laboratory. We'll now recognize our panel.
    Ken Wainstein, the U.S. attorney from the District of 
Columbia; Joseph A. DiZinno, who is the Director of the Federal 
Bureau of Investigation Laboratory at the FBI. Chief Charles 
Ramsey is no stranger to this committee; he's the chief of 
police at the Metropolitan Police Department. Chief, welcome 
back, and thanks for the job you're doing. And Edward Reiskin, 
the D.C. deputy mayor for public safety and justice. Thank you 
for being with us. And Ms. Valencia Mohammed, who was referred 
to in both of our lists. Thank you for being with us also.
    We'll do this in one panel. It's our policy that we swear 
in all witnesses before you testify. So if you could rise and 
raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you. Now your entire statements 
are in the record. We have a light in front of you. It turns 
green when you start. It turns yellow after 4 minutes, red 
after 5. If when you see that yellow light on you can start to 
wind down and try to stay close to 5 minutes, we'd appreciate 
it, but you know your testimony is important and we appreciate 
your being here.
    Ken, thank you.

    STATEMENTS OF KEN WAINSTEIN, U.S. ATTORNEY, DISTRICT OF 
 COLUMBIA; JOSEPH A. DiZINNO, D.D.S., DIRECTOR, FEDERAL BUREAU 
 OF INVESTIGATION LABORATORY, FEDERAL BUREAU OF INVESTIGATION; 
    CHARLES H. RAMSEY, CHIEF OF POLICE, METROPOLITAN POLICE 
  DEPARTMENT; EDWARD D. REISKIN, D.C. DEPUTY MAYOR FOR PUBLIC 
SAFETY AND JUSTICE; AND VALENCIA MOHAMMED, DISTRICT OF COLUMBIA 
                            RESIDENT

                   STATEMENT OF KEN WAINSTEIN

    Mr. Wainstein. Morning, Chairman Davis, Congresswoman 
Norton. I want to thank you for inviting me to testify today 
about the very important topic of the idea of building a 
forensic laboratory for the District of Columbia.
    I testified here today about the idea of building a 
laboratory from the perspective of the chief prosecutor of the 
District of Columbia whose office is a primary consumer of the 
forensics examinations that will be conducted by that 
laboratory. I want to preface my remarks by saying that I 
express no opinion on the source of any funding for such a 
laboratory, but instead I would like to focus my comments on 
the law enforcement benefits we would derive from having such a 
laboratory dedicated to working on criminal cases in the 
District of Columbia.
    As you know, the U.S. Attorney's Office here in D.C. is 
unique among all 94 such offices in that it serves as both the 
Federal prosecutor as well as the local prosecutor or the local 
D.A. for the Nation's Capital. In addition to our Federal 
caseload, we initiate approximately 22,000 criminal cases each 
year for prosecution in the Superior Court. Particularly in the 
most serious cases or the more serious of those cases such as 
homicides, nonfatal shootings, rapes, other sex offenses, drug 
crimes, carjackings and the like, our prosecutors and their law 
enforcement partners rely heavily on forensics evidence and 
forensics examinations and analyses to solve those crimes and 
to prove our cases beyond a reasonable doubt.
    Currently these forensic analyses are conducted in several 
places. Testing and fingerprint analysis are routinely 
conducted by the MPD. The FBI tests DNA samples, hair and fiber 
evidence and other trace evidence, and the DEA performs 
chemical analysis on suspected drugs. These agencies have done 
a tremendous job, I want to underscore that, they've done a 
tremendous job doing these analyses. But this dispersed system 
of evidence analysis can and does have an adverse impact on our 
prosecution efforts.
    For example, with regard to the DNA analysis conducted by 
the FBI, our Superior Court cases go into the mix with the 
FBI's own cases and those State cases from around the country 
that are sent to the FBI. As a result, the processing of our 
Superior Court cases by necessity has to be prioritized against 
the competing needs of these other cases from around the 
country. In addition, these workload realities mean that the 
FBI can generally conduct DNA analysis in a case only after an 
arrest has been made and a trial date is set. Thus, it's the 
relatively rare occasion when we're able to make use of DNA 
analysis in the investigative prearrest stages of our cases.
    From my perspective, a forensics laboratory in the District 
of Columbia should go a long way toward addressing these 
concerns. I believe the establishment of a laboratory would 
benefit our law enforcement efforts in the following ways: 
First, it would give us more control of the prioritization of 
our cases. Without the competing demands of cases from other 
jurisdictions, we'd be better able to schedule and prioritize 
our forensics analyses to meet the needs of our investigations 
and our trial schedules.
    Second, it would give us an opportunity to tackle the 
backlog of DNA samples collected in D.C. and then give us the 
opportunity to enter them into appropriate data bases to be 
used in D.C. and throughout the Nation.
    It would also permit closer coordination among 
investigators, the prosecutors and the forensic analysts that 
would help us solve crimes and bring more criminals to justice.
    It would expand our ability to use DNA analysis and other 
forensic testing in the investigative prearrest stages of our 
cases.
    It would be an opportunity to upgrade our forensics 
facilities and equipment which are lacking in some respects.
    It would allow us to enhance the management and operations 
of the medical examiner's office whose work is vitally critical 
to the successful prosecution of our homicide cases. It would 
allow us the ability to do our own drug analysis on suspected 
drugs. And finally, the development of a state-of-the-art 
facility would help to attract and retain high caliber staff 
and managers to run a high quality forensics program here in 
D.C.
    Now one doesn't need to watch CSI every week to appreciate 
the critical role of forensics work in our criminal 
investigations and our prosecutions. As technology progresses 
and as jurors increasingly expect to see sophisticated 
forensics evidence at trial, we are becoming more and more 
reliant on effective evidence collection and analysis to 
develop cases and to secure convictions in our violent crime 
prosecutions.
    There is no better example of this phenomenon than our 
neighboring jurisdiction to the west. The Commonwealth of 
Virginia has shown how enormously valuable DNA data bases can 
be in the effort to solve crimes. Since the creation of this 
data bank in 1992, Virginia has entered over 250,000 samples 
taken from convicted felons. The data base has produced 3,451 
hits which have solved 338 murders, 610 sex crimes, and 2,163 
burglaries. That is over 3,000 very serious crimes, most of 
which would not have been solved without that DNA technology 
and data bases.
    The District of Columbia needs to catch up. It needs to be 
able to analyze cases in which there is no identified suspect. 
This means that both crime scene samples and offender samples 
have to be entered into the system to try to make a match. As 
helpful as the FBI lab has been and it's been tremendously 
helpful in making sure we have analyses for trial when there's 
an identified suspect, it simply can't process all of the 
District's no suspect samples and all the offenders for the 
data base and still do all of its other very important work.
    While a D.C. forensic laboratory will not solve all of our 
law enforcement challenges, it will go a long way toward making 
sure that those crimes that can be solved, are solved. For the 
victims of these crimes, their families and the community as a 
whole, this should be a high priority.
    Thank you for inviting me to testify today, and I would be 
pleased to answer any questions you might have.
    [The prepared statement of Mr. Wainstein follows:]

    [GRAPHIC] [TIFF OMITTED] T0327.009
    
    [GRAPHIC] [TIFF OMITTED] T0327.010
    
    [GRAPHIC] [TIFF OMITTED] T0327.011
    
    [GRAPHIC] [TIFF OMITTED] T0327.012
    
    Chairman Tom Davis. Thank you very much.
    Mr. DiZinno. Thank you.

                 STATEMENT OF JOSEPH A. DiZINNO

    Mr. DiZinno. Good morning, Mr. Chairman, Congresswoman 
Norton and members of the committee, I am pleased to be here 
today to discuss the FBI's continued commitment to assist the 
Washington, DC Metropolitan Police Department in the 
development of their own forensic laboratory assets.
    During 2002 and 2003, the FBI Laboratory initiated 
discussions with the MPD to explore the development of an MOU 
between both agencies regarding issues affecting MPD forensic 
case examinations. The FBI Laboratory has historically provided 
laboratory testing services to MPD. Since September 11, 2001, 
the mission of the FBI Laboratory has focused primarily on 
providing forensic services to support counterterrorism and 
counterintelligence investigations. The support to MPD 
investigations could continue but not at the priority level 
previously received.
    Since approximately 30 percent of all submissions received 
by the FBI Laboratory nuclear DNA analysis unit and a 
significant number of trace evidence examinations involve MPD 
investigations, the FBI Laboratory recommended the formation of 
an MPD laboratory that would replace the trace evidence and DNA 
services being performed by the FBI Laboratory. The FBI 
Laboratory and MPD then developed an MOU to document this 
partnership.
    As part of the MOU, the FBI has provided MPD laboratory 
space, equipment and supplies and training for MPD personnel to 
perform examinations within the FBI Laboratory. Additionally, 
laboratory operational manuals, quality assurance procedures 
and all materials necessary to pursue laboratory accreditation 
within the scope of the FBI Laboratory's accreditation agency, 
the American Association of Crime Laboratory Directors, 
Laboratory Accreditation Board, or ASCLD/LAB, have been 
provided.
    In the spring of 2004, the MOU was formally agreed upon by 
both agencies and the FBI Laboratory immediately began 
supporting this initiative. Based upon the 2002 workload 
submitted to the FBI Laboratory by the MPD, it was recommended 
that three serology/DNA examination teams, each consisting of 
one examiner and one biologist, be established as well as two 
trace evidence examination teams, each consisting of one 
examiner and one technician. Narrative position descriptions, 
academic and experience requirements, salary ranges and 
employment postings were provided by the FBI Laboratory to MPD 
in April 2004. Subsequent to the signing of the MOU, the FBI 
Laboratory assisted in the advertisement, recruitment and 
interview process to select prospective candidates from June to 
October 2004.
    Currently two MPD trace evidence examiners and one MPD 
trace evidence technician are working on MPD casework in FBI 
Laboratory. A second trace evidence technician resigned before 
completing her training and a replacement was hired and is 
expected to be qualified by the end of September 2006. The 
incorporation of the MPD trace evidence teams in the FBI 
Laboratory has had significant positive results for the MPD and 
the FBI. For example, between 2003 and 2005, average turnaround 
time for MPD trace evidence cases was reduced from 142 to 50 
days with the incorporation of the MPD trace evidence teams. 
Incidentally in that same time period, the non-MPD trace 
evidence examination turnaround time for the FBI Laboratory 
decreased from 127 days in 2003 to 61 days in 2005. For DNA 
analysis currently two MPD DNA biologists are performing pre-
DNA serology examinations on MPD casework in the FBI Laboratory 
and are expected to be qualified to perform DNA biologist work 
in spring 2007. The third MPD biologist is currently training 
in the FBI Laboratory. In addition, two MPD DNA examiners have 
been hired and both should be qualified to perform DNA 
examinations on MPD casework by the fall of 2007. The FBI will 
continue to assist MPD to recruit a third DNA examiner.
    It should be noted that since the inception of this 
program, an additional five DNA personnel have been hired and 
have left the program for a variety of reasons. Overall, it is 
anticipated that two DNA examiners and three qualified DNA 
biologists will be working MPD casework by October 2007.
    In 2003, the FBI Laboratory received 194 MPD DNA cases and 
159 MPD submissions were reported with DNA results. In 2005, 
the FBI Laboratory received 255 MPD DNA cases and reported 232 
MPD DNA submissions--results. It should be noted that a portion 
of the MPD DNA cases were outsourced for DNA analysis work at a 
cost of $1.1 million paid by the FBI Laboratory. The current 
backlog for nuclear DNA casework in the FBI Laboratory consists 
of 329 MPD cases and 1,323 non-MPD cases. The average 
turnaround time for a nuclear DNA case in the FBI Laboratory 
has increased to almost 1 year for nonexpedited cases. It is 
anticipated that once the MPD DNA personnel are qualified and 
working MPD cases, the turnaround time for MPD DNA cases as 
well as the FBI non-MPD DNA cases will significantly be 
reduced.
    As far as the national DNA data base, FBI lab personnel 
have uploaded 2,325 DNA samples from Court Services and 
Offender Supervision Agency [CSOSA], and 23,756 Federal 
convicted offender samples, some of those samples of convicted 
offenders from Washington, DC as well as 250 to 300 forensic or 
unknown samples into the national data base. As a result of FBI 
personnel uploading Washington, DC DNA data into the national 
DNA index, 14 CSOSA offender hits have occurred as well as 70 
national DNA index hits to forensic samples of MPD profiles.
    Overall, it is anticipated in the first quarter of 2008 the 
MPD laboratory could potentially achieve ASCLD/LAB 
accreditation.
    Once again, I appreciate the opportunity to come before you 
today and share the work that the FBI Laboratory is doing in 
cooperation with MPD to address the need to support the 
development of a dedicated MPD laboratory. The FBI will 
continue its efforts and will keep this committee informed of 
our progress in protecting the people of this Nation's Capital.
    Mr. Chairman, Ms. Norton, members of the committee, thank 
you for your time and your continued support of the FBI and MPD 
laboratory's continued efforts to address the timely analysis 
of forensic evidence in the Nation's Capital. I am happy to 
answer any questions.
    [The prepared statement of Mr. DiZinno follows:]

    [GRAPHIC] [TIFF OMITTED] T0327.013
    
    [GRAPHIC] [TIFF OMITTED] T0327.014
    
    [GRAPHIC] [TIFF OMITTED] T0327.015
    
    [GRAPHIC] [TIFF OMITTED] T0327.016
    
    [GRAPHIC] [TIFF OMITTED] T0327.017
    
    Chairman Tom Davis. Thank you very much.
    Chief Ramsey, thanks for being with us.

                 STATEMENT OF CHARLES H. RAMSEY

    Chief Ramsey. Thank you, sir. Mr. Chairman and members of 
the committee, staff and guests, thank you for the opportunity 
to testify this morning concerning the District of Columbia 
consolidated laboratory facility and what the lab will do for 
crime fighting and crime prevention in our Nation's Capital.
    Deputy Mayor Reiskin will provide you with a detailed 
update on the planning and implementation of the proposed lab 
and he will articulate quite clearly and convincingly why such 
a facility dedicated to the needs and priorities of the 
Metropolitan Police Department and other D.C. Government 
agencies is so crucial to the health and safety of our city. I 
won't try to repeat what the deputy mayor will lay out for the 
committee. However, I would like to amplify a few key points 
that he will make, especially as they relate to the 
Metropolitan Police Department's mission of crime solving and 
crime prevention.
    Over the years advancements in DNA analysis and other 
forensics technology has provided law enforcement with 
tremendous benefits in the short term as well as amazing 
promise and potential for the future. While television has 
certainly popularized the importance of DNA in modern crime 
fighting, law enforcement agencies across the country can point 
to any number of real-life cases that have been solved through 
the use of DNA analysis. Earlier this year here in the District 
of Columbia we closed a 23-year-old murder case based largely 
on DNA evidence.
    The entertainment programs such as CSI and Law and Order 
gloss over one very important reality, to take full advantage 
of DNA technology agencies need the resources, bricks and 
mortar, specialized equipment and highly trained staff to do 
the job. Unfortunately, the District of Columbia has been 
behind the curve, far behind the curve for a long period of 
time when it comes to harnessing the power of DNA technology.
    During the 1970's, 1980's and 1990's when other 
jurisdictions were investing in building or expanding the 
capacity of their crime labs, the District continued to rely on 
the Federal Government to handle most of our lab operations. In 
recent years, it has become clear to everyone, the Mayor, the 
D.C. Council, Metropolitan Police, other health and safety 
agencies and certainly our residents that this situation is no 
longer tenable. To support our crime fighting efforts, the 
District needs its own dedicated crime laboratory and we need a 
laboratory that's capable of taking full advantage of the 
latest in DNA and other forensics technologies.
    As you will hear from the deputy mayor, we're finally 
moving in that direction with plans underway to construct a 
consolidated laboratory that will include a fully functional 
crime lab to support the MPD and other agencies.
    The Metropolitan Police Department appreciates the crime 
lab's support and resources provided by the FBI and other 
Federal agencies over the years. The FBI in particular has been 
a gracious and steady partner in analyzing evidence for our 
department and, more recently, in providing space and resources 
for a small number of dedicated MPD technicians to work on 
District cases at the FBI lab, but I understand that the FBI 
has its own needs and its own priorities when it comes to 
allocating the finite resources of its crime lab and since the 
terrorist attacks of September 11, 2001, the demands on the FBI 
crime lab have certainly expanded and their priorities have 
necessarily shifted.
    I know it can be difficult and frustrating for a crime 
victim in D.C. or the survivor of a homicide victim to be told 
that forensic analysis on their case may be delayed because the 
FBI crime lab is focusing on other priorities that come first. 
But that's the reality we face under the current situation.
    A dedicated D.C. crime lab is essential for both day-to-day 
crime fighting as well as homeland security in the National 
Capital Region. The reality is should there be a future 
terrorist strike in the District of Columbia we would need not 
only the FBI crime lab but other forensic facilities to be 
involved in the myriad tasks associated with such a 
catastrophic event. In this scenario a dedicated D.C. crime lab 
would promote much needed coordination among police, health 
officials in the medical examiner's office, while continuing to 
ensure evidence from local crimes--sexual assaults, robberies, 
and others--is still being analyzed in a timely fashion.
    In your invitation letter, Mr. Chairman, you asked about 
the relationship between forensic testing and the MPD's ability 
to refer cases for prosecution. That is a somewhat difficult 
question to assess. There are very few cases in which DNA or 
other forensic evidence is the sole basis for prosecution. 
Typically forensics represents one element of the total 
evidentiary package in any particular case. That said, there 
are certainly cases where DNA, for example, is the foundation 
for a case and moving forward depends on the forensic evidence. 
Our inability to analyze this evidence in a timely manner can 
delay our ability to move forward on some cases.
    Perhaps a larger technical limitation involves our 
inability under the current arrangement to take full advantage 
of the CODIS system, the repository of DNA samples that has 
been so beneficial in identifying offenders and solving cases 
nationally. Currently in many of our cases the FBI crime lab is 
able to conduct DNA analysis only when we have a suspect in a 
case. As such, the DNA test is largely to confirm the 
involvement of an already identified suspect. That is certainly 
beneficial in fact essential in these types of cases. However, 
if our department had its own fully functional crime lab, we 
would be able to conduct many more cold hit analyses in which 
DNA recovery at the crime scene is tested against the national 
repository. If the experiences of Virginia and other 
jurisdictions are any guide, I am quite confident this would 
result in more offenders being arrested and more cases being 
solved. In addition to being a benefactor of CODIS, the 
District of Columbia could also become a more frequent 
contributor to the national system, something that would 
benefit others, particularly neighboring jurisdictions as well.
    Unnecessary delays or missed opportunities in moving 
forward with criminal prosecutions can harm not only the 
victims or the survivors, who are seeking justice and some 
measure of closure. They can also endanger the community at 
large as offenders continue to commit crimes while the earlier 
case against them is being built. That's why I so strongly 
believe that we need to have our own dedicated crime lab, and 
it has implications not only for investigating and solving 
crimes but just as importantly for preventing crime if we're 
making our community safer.
    In many respects, our department is performing remarkably 
well, given the limitations we face with our crime lab 
resources. According to the FBI's 2005 crime statistics that 
were released earlier this week, the District's clearance rates 
for homicide, rape, aggravated assault and burglary are well 
above average when compared with comparably sized cities having 
populations of 500,000 to 1 million, and while I'm certainly 
pleased that our clearance rates were higher than the norm, I 
will never be satisfied with just being above average. This is 
our Nation's Capital, and we should be setting the standard 
when it comes to criminal investigations, crime solving and 
crime prevention. We can't possibly meet that goal if we don't 
have our own dedicated crime lab facility.
    The good news is that our city is united in our commitment 
to build a state-of-the-art crime lab facility. Our elected 
leaders, the business community, the police department and 
other safety and health agencies and, most importantly, our 
residents all recognize the need for this facility and the 
benefits it would bring. So moving forward with this project is 
not a matter of consensus or commitment but a matter of 
resources. By working together, the District Government and our 
partners in the Federal Government, I am confident that we can 
find the resources necessary to create a facility that is 
fitting and appropriate for our Nation's Capital and one that 
will help us continue to make this great city even safer and 
more secure.
    Thank you.
    [The prepared statement of Chief Ramsey follows:]

    [GRAPHIC] [TIFF OMITTED] T0327.018
    
    [GRAPHIC] [TIFF OMITTED] T0327.019
    
    [GRAPHIC] [TIFF OMITTED] T0327.020
    
    [GRAPHIC] [TIFF OMITTED] T0327.021
    
    Chairman Tom Davis. Thank you very much.
    Mr. Reiskin, thanks for being with us.

                 STATEMENT OF EDWARD D. REISKIN

    Mr. Reiskin. Thank you, Mr. Chairman. Good morning. My name 
is Ed Reiskin. I am the deputy mayor for public safety and 
justice. And I do want to thank you, Mr. Chairman, and you, 
Congresswoman Norton, for your continued leadership on many 
issues that are of vital interest to the District and this is 
most certainly one of them.
    I am happy to be here on behalf of Mayor Williams to 
discuss this topic that's of vital importance not just to 
District of Columbia residents but also to our Federal 
stakeholders and the other folks that are involved in the 
District's complex criminal justice system.
    The reason Mayor Williams and the Council has championed 
this issue, both through his request for Federal support and 
through his commitment of significant local capital resources, 
is that this facility will have a greater impact on reducing 
crime and preparing the city for disasters than perhaps any 
other single investment we can make.
    There's been a lot of discussion about the crime lab 
aspects of this facility, but this is a consolidated laboratory 
facility that we're building. It will house the Metropolitan 
Police Department's forensics crime laboratory, the entire 
operations of our chief medical examiner, the Department of 
Health's public health laboratory, and the forensic toxicology 
drug testing lab of the Pretrial Services Agency, which is a 
Federal agency.
    You've heard much about the benefits of the crime lab which 
include not only enhanced capability to solve crimes but 
improve expedited detection of and response to biological or 
chemical agents and communicable diseases, state-of-the-art 
facilities to support death investigations and greater 
coordination, communication and standardization among the 
agencies, and these synergies are not and cannot be achieved 
through the current work of outmoded facilities, outsourced 
responsibilities and outspaced capacity.
    The distinguished panel here has spoke quite a bit to the 
criminal aspects of this. So I'll just highlight that we have 
tens of thousands of items of evidence collected at the scenes 
of crimes every day throughout the District, but because of the 
lack of facilities, many of those pieces of evidence go 
unanalyzed. They're certainly unanalyzed quickly, sometimes 
languishing for years, leaving criminals on the loose, victims' 
families suffering and of course justice not served.
    The Chief has spoken to the fact and all of them have 
spoken to the fact that we have lagged behind in terms of DNA 
analysis and processing and, as you refer to, Mr. Chairman, one 
of the more striking statistics is that we have roughly 1,500 
sexual assault cases awaiting analysis. The sexual assault case 
backlog is shameful and an injustice to the many victims who 
would find peace only through the capture of their assailants.
    Beyond DNA analysis, the lab will support firearms, 
fingerprint, document and cyber analysis, all critical to the 
successful closure and prosecution of crime in the District. 
The Office of the Chief Medical Examiner, also a part of this 
lab, has the responsibility for identifying decedents but no 
viable means of using DNA analysis which would be particularly 
helpful on unidentifiable or decomposed decedents.
    This facility is small and old which can strain staff size 
and effectiveness, and the fact that they have to outsource 
functions can delay certification of the cause and manner of 
death, which cannot only hamper a criminal investigation, as 
the U.S. Attorney referred to, but also leaves families waiting 
longer than they should to have closure.
    The lab will also contain a public health lab, and I don't 
have to tell you that we remain one of the top targets in the 
country for terrorism, and in fact we were struck with a 
bioterrorism attack here in this complex shortly after 
September 11th. The District's Department of Health partnered 
with many others in the response, and while 5 years later our 
response capabilities have improved quite a bit, there's been 
relatively little improvement in our ability to detect and 
prevent.
    The new public health laboratory as part of the 
consolidated lab would be able to provide laboratory response, 
network approved rapid identification of bioterrorism agents, 
and clinical diagnostic support for hospitals with potential 
victims of biological, chemical or toxin exposures. In order to 
safely handle these types of agents, we need a biosafety level 
3 containment facility.
    Our current public health lab, which is 64 years old and 
collocated in an office environment, actually in the police 
department headquarters building, that cannot be upgraded to 
that level.
    With the proper containment facilities, we'll be allowed to 
safely process various agents of bioterrorism such as anthrax, 
tularemia and ricin. These types of facilities are also 
required by conventional forensic disciplines to conduct 
forensic examinations on biologically contaminated evidence 
that are part of criminal investigations.
    So to bring you up to where we are with this facility, to 
date over $23 million has been committed through District and 
Federal funding. We have an expert team in place on this 
project. We've completed a program analysis which has 
identified a need for a roughly 300 square foot, 5 story 
facility that would house roughly 500 employees. Site analysis 
is complete. Having reviewed location, accessibility ownership, 
zoning and other factors, we are currently completing a process 
mapping exercise, which will help define our staffing analysis 
as well as help us be able to exploit synergies between the 
different functions. And just last month we executed a design 
contract so the design for the facility is now underway with 
the program site and process mapping work in hand.
    Finally, we have $150 million proposed in local capital 
budget funding over the next--over the two following fiscal 
years for construction, the balance of construction dollars to 
be requested from the Federal Government.
    So in closing we're very grateful for the opportunity to 
raise this issue. As I said, the Mayor and the Council have 
committed significant effort and resources to this project. 
There are many benefits which I think the other speakers have 
already touched upon, benefits that will serve not only our 
residents and businesses but the members of our Federal family 
in the city and the 20 or 25 million visitors who come here 
each year.
    So I thank you for this opportunity and look forward to 
questions.
    [The prepared statement of Mr. Reiskin follows:]

    [GRAPHIC] [TIFF OMITTED] T0327.022
    
    [GRAPHIC] [TIFF OMITTED] T0327.023
    
    [GRAPHIC] [TIFF OMITTED] T0327.024
    
    [GRAPHIC] [TIFF OMITTED] T0327.025
    
    [GRAPHIC] [TIFF OMITTED] T0327.026
    
    [GRAPHIC] [TIFF OMITTED] T0327.027
    
    Chairman Tom Davis. Well, thank you very much as well. Ms. 
Mohammed, thank you for being with us.

                 STATEMENT OF VALENCIA MOHAMMED

    Ms. Mohammed. Thank you very much. Now it's time to hear 
from the mamas. Thank you very much, Congressman Davis and 
Congressman Norton, for having me here today.
    In the spirit of the tens of thousands of families who have 
lost a loved one to street wars in the black community plagued 
with drugs and gun violence, I come before you today in peace 
in support of the thousands of mothers like myself who have 
endured the pain of losing our children to violence in the 
streets of the District of Columbia while others look down on 
us as if street violence only comes to bad people or those 
people who deserved it.
    I am Valencia Mohammed, the mother of six children. I have 
lost two sons to gun violence in the Nation's Capital. In 1999, 
my 14-year-old son Said Raqib was found murdered in my own home 
while I attended a weekend sorority conference in Philadelphia. 
I aged 10 years in a week from crying and begging God to bring 
him back alive. I have never spoken with the original detective 
in that case. I was in shock and could not work for the first 2 
years following his death. The murder tore my family apart. One 
child became mentally ill, going in and out of mental 
institutions.
    Another child, Imtiaz Mohammed, who I believed had a bright 
future, dropped out of high school with only seven credits left 
to complete his secondary education. Imtiaz seemed to be on the 
path of destruction after the death of his brother.
    On the D.C. streets, if you know who killed someone, you 
don't tell, you take revenge, you wait until the police solve a 
case, you take the information to your grave. In fact, you 
don't even tell your mother, your snitching mother. I waited 
and waited for years to hear some good news about my son's 
case. The stream rumor was that he was accidentally killed by 
one of his friends while they were examining a gun they rented 
with their allowance. I kept this in my heart. My family told 
the police we never heard from them again. I always thought I 
was due some official investigation and detailed explanation 
about what happened.
    On October 28, 2004, I received another call, the news 
about my son Imtiaz Mohammed being shot brutally in front of a 
home where we first lived in the District. The house is only 
four blocks from the police precinct. The murder happened 
around 4 p.m. while I was on my way to computer class. I was 
hysterical when I heard it because, like Said, I knew there was 
nothing I could do to bring him back. At this time I got two 
responsible police detectives. However, they were so efficient 
in their duties, they also had a very heavy caseload. As a 
reporter, many times I would see them in Federal court. How 
could they be working on my son's case when they were in court, 
I said to myself.
    I was already determined to become an activist for grieving 
mothers and an advocate for our loved ones who were killed in 
the District after Imtiaz was killed. I told the Chief, I would 
galvanize mothers to help the police department get whatever 
they needed to make our community safe. I don't know how many 
others accepted the charge to pound the streets, grocery 
stores, churches, schools, Metro stations, radio shows, 
television stations, corridors of the D.C. politicians or the 
halls and corridors of the Senate, but I knew what was my 
calling at that point. The Chief said, if you could just help 
me get a forensics lab. I said, is that all you need? He said, 
please, just help me get that. I accepted the challenge.
    Solemnly, I swore with the blood of my two sons that I 
would not stop until this matter received the attention on 
Capitol Hill that it deserved, along with the appropriate funds 
to erect a fully operational, adequately staffed forensics 
crime lab. I took to the streets with the newsletter showing a 
few photos of murder victims. Hundreds of parents began to call 
me. We began to organize our efforts on several fronts to stop 
crime because we began to analyze many of the programs that 
were in place, that were serving a small segment of our 
community. We analyzed organizations that received lots of 
attention but did not produce adequate results.
    Thank God, we ran into Paul Wagner, who's a reporter from 
WTTG Fox TV, who had been a lone soldier out in the community 
for over 7 years, crying for a forensics lab, but his cries 
went on deaf ears. We also contacted about a dozen 
jurisdictions with crime labs, obtained blueprints and 
information about funding sources.
    As we near the possibility of the District's own forensics 
lab, the cost is our concern. We have been told that the only 
way Congress would fund the forensics lab is for it to include 
a bioterrorist lab component. That's not fair. For decades we 
have relied on the FBI to assist us. We almost had 5,000 
unsolved murders on the books. Does anyone hear our plea? It's 
really not fair. We want our own stand-alone forensics crime 
lab. Take the bioterrorist component where it belongs, with the 
military or the FBI. Bioterrorism is a national issue. We need 
and deserve our own state-of-the-art, fully operational, 
adequately staffed and fully operational forensics lab.
    Congressman Davis, many of the mothers whose children were 
killed in the District come from Fairfax County. They believe 
their children's murders are not solved because they reside in 
your county. Some of their children came to D.C. for a date, 
others going home from work. I want to go back and tell them 
also, Congressman Davis, that you are fighting on their behalf. 
I want to give all mothers who have lost their children to the 
streets in D.C. some hope that they can finally rely on their 
officials and that you are listening.
    Once the Congress decides to provide funding for the lab, 
we do not want it redirected in any way by the Mayor or the 
Council of the District of Columbia.
    Please hear our plea. We have planned in the near future 
for dozens of mothers to begin our lobbying efforts after the 
first of the year. We will walk the halls of Congress and the 
Senate. The discussions in this meeting will determine our 
direction. For mothers who have lost their direction due to 
street violence, the pain is quite different from mothers who 
have lost their children to foreign wars. We mean no harm. At 
least a mother of a war casualty may give her child a kiss 
goodbye or a hug before they shipped them off to fight for 
freedom in a foreign country. There might be a big celebration. 
Then there's a big send-off with hundreds of fellow enlistees 
to serve this country. These parents are fully aware that they 
have sent their children to kill or be killed in a war 
sanctioned by this country. If their child kills dozens of 
people in the war, the act is hailed as a victory. If they got 
killed in the act, they are hailed as heroes. With street 
violence, mothers don't know that the last spoken word to their 
child, hug or kiss with their children would be the last. There 
is no big send-off party. After they have been killed, no one 
hails them as a hero but a victim.
    Sometimes society and police have preconceived concepts 
that the child may have caused his or her own demise. Many 
mothers don't fight for their right for closure. They endure 
the pain and slowly die inside spiritually and until the pain 
takes them over physically and they pass away. But for those of 
us who have sworn with the blood of our children, we will 
continue to fight for our police department to get whatever it 
needs to keep our community safe.
    We will leave you in peace until we meet again. Thank you 
again, Congressman Davis and Congressman Eleanor Holmes Norton, 
and we truly believe that this matter could have been resolved 
a long time ago if our Congressperson had a voice in Congress. 
Thank you very much.
    [The prepared statement of Ms. Mohammed follows:]

    [GRAPHIC] [TIFF OMITTED] T0327.028
    
    [GRAPHIC] [TIFF OMITTED] T0327.029
    
    [GRAPHIC] [TIFF OMITTED] T0327.030
    
    Chairman Tom Davis. Thank you. I'm trying to get her a 
voice in Congress.
    Ms. Mohammed. Thank you. I know.
    Chairman Tom Davis. And I'm working on it. Thank you very 
much for being here and sharing that tragic story, and 
hopefully it won't be repeated if we can get some action. Your 
testimony has been very, very helpful.
    I'm going to start the questioning with Ms. Norton and then 
I'll conclude it. Ms. Norton, you're recognized.
    Ms. Norton. Thank you very much, Mr. Davis. Ms. Mohammed, I 
have a voice. The problem is I don't have a vote, but I know 
exactly what you mean. And Chairman Davis is doing all--he and 
his staff are doing all they can to help. And we're trying to 
get this done this term. It's been a long time.
    Your testimony, the testimony of all of you has been very 
enlightening to me. Let me begin with a few questions. This 
question comes from the testimony of Mr. DiZinno. I'm a member 
of the Homeland Security Committee, so is the chairman. And I 
noted that your testimony virtually began with what we all 
know, and you say on page one indeed that the FBI Laboratory 
has focused primarily on providing forensic services for 
counterterrorism and counterintelligence. What does that mean 
in terms of your support for ordinary criminal investigations 
that you assist in the District of Columbia and, for that 
matter, in the other States, and how does--and I would like 
some sense of before and after on that question, before 
terrorism and after terrorism.
    Mr. DiZinno. Yes. Thank you. I think to answer your 
question the way the FBI addresses its caseload in the 
laboratory is based on the FBI priorities. Since September 11th 
those priorities----
    Ms. Norton. So forensically that would mean what? Does that 
mean that you fill in the blanks?
    Mr. DiZinno. That would mean that if there was evidence 
submitted that has to do with preventing a terrorist attack or 
evidence submitted that would have to do with preventing the 
United States against foreign intelligence operations or 
espionage in line with the FBI priorities, those cases would be 
worked prior to cases of violent crime.
    Ms. Norton. It's hard for me to know. Therefore, how often 
or how--what this means in terms of numbers or delays for local 
jurisdictions like the District of Columbia.
    Mr. DiZinno. Yes.
    Ms. Norton. The District now pays for much of its own staff 
and maybe we can understand that the District is paying for 
this service in the FBI, is it not?
    Mr. DiZinno. The District is currently funding the 
personnel in our lab--to work in our laboratory. All the 
reagent supplies, quality assurance, quality control measures, 
training, that is provided by the FBI laboratory.
    As far as the priority for the District of Columbia cases, 
we ask the MPD to prioritize their cases that they submit to us 
prior to them being submitted.
    Ms. Norton. Do you have so many cases that it means that--
when you say ``cases'' that may prevent a terrorist attack, we 
hope that you're not--we hope that there are not thousands and 
thousands of cases that have to do with preventing a terrorist 
attack. So I'm trying get some sense of how much work you do 
for local jurisdictions today as compared with, let us say, 
before September 11th, just in rough percentage terms.
    Mr. DiZinno. Well, certainly the percent varies in the 
laboratory depending on what examination we are speaking about, 
whether it be DNA, latent print exams, and those percentages 
vary from unit to unit depending on the area of expertise of 
examination desired in that case. Certainly, since September 
11th, the number of terrorism cases submitted to our laboratory 
has greatly increased. If you would like, I can get back to you 
with numbers for each----
    Ms. Norton. That would be very helpful.
    Mr. DiZinno [continuing]. Specific area if that would be 
helpful.
    Ms. Norton. That would be very helpful and not only for our 
work on this committee, but in my other work on other 
committees having to do with antiterrorism efforts.
    This MOU idea is a very good idea. I'm trying to understand 
it and the greater efficiency that it has brought.
    Could I ask Mr. Reiskin, you say in your testimony that 
backlogged cases are not part of the MOU, which leads me to 
wonder if they're orphans or what happens to them.
    Mr. Reiskin. As Dr. DiZinno said, MPD has the ability to 
prioritize the cases that go to the FBI lab. The FBI lab has a 
constrained capacity, understandably, because of the priorities 
that they have as the Federal law enforcement agency to be able 
to handle D.C. cases, and largely, I think they've been very 
accommodating in working with us, working with MPD, to 
prioritize what cases are submitted for analysis and which are 
not. It's the----
    Ms. Norton. No. I'm asking you another question. I 
understand that. Backlogged cases are not part of the MOU. 
Where are they? Who handles them? The more backlogged a case 
gets, the less likely it is to do any good even if you do get 
to it. So I'm trying to figure out, if they're not a part of 
the MOU, which means that you have to do at least with some of 
the processing, then what happens to that group of cases, and 
how many such cases are there?
    Mr. Reiskin. We have attempted to work down that backlog. 
We've received some grant funds from the Department of Justice.
    Ms. Norton. So you all do those cases yourselves?
    Mr. Reiskin. What we've done most recently is we've 
contracted with a private laboratory. We have a contract that 
will enable something on the order of 250 cases to be 
processed, but the private laboratory is not accredited by the 
FBI, so it can't do the CODIS data base entry, so we're----
    Ms. Norton. Well, does that mean the particular one you're 
using, or no private laboratories are accredited by the FBI?
    Mr. Reiskin. I don't believe any type of laboratories are 
accredited.
    Mr. DiZinno. The FBI is not an accrediting agency. Most 
labs are accredited by an organization called the American 
Society of Crime Laboratory Directors, Laboratory Accreditation 
Board [ASCLD/LAB].
    Ms. Norton. Now, is this lab accredited or not?
    Mr. Reiskin. The private lab we've contracted with is not. 
What we have done is we've reached out to the accredited crime 
labs in the region, and we are in the process of working with 
one of them on an MOU that would enable them to take the 
results of the analysis that we have had done and get it 
entered into the data base. But we clearly have more backlog 
than we can handle.
    Ms. Norton. I've got to stop you there because, you know, 
I'm not a defense lawyer, but you've already given me something 
to go back at the U.S. attorney when the matter comes. Whether 
it matters or not to be accredited, the fact that the jury 
hears that it's not accredited is not something that I would 
want to have happen if I were a victim of a crime.
    So would you please tell me what the effect of giving it to 
an unaccredited lab is?
    Chief Ramsey. If I may, Ms. Norton, the lab that we're 
contracted with, the private lab, it is accredited. The problem 
is that because it's--they can't enter into CODIS. They're not 
a law enforcement agency.
    Ms. Norton. I see.
    Chief Ramsey. So another agency has to then review the 
results, like the FBI, like Baltimore City, for an example, 
that can enter directly into CODIS. So you really don't--I mean 
that--it's still got a backlog because they not only have to 
deal with their cases; I mean, quite frankly, they probably may 
as well have done the analysis themselves if they've got to go 
over someone else's work, in a sense. It's a little easier, but 
it still takes more time. So it just makes it difficult. So we 
are working with Baltimore City now to try to get some of our 
cases handled through their lab, as well as continuing to try 
to get some of the cases through the private labs, but that's 
266 cases. I mean, we have almost 1,500 sex cases that are 
backlogged, so you're barely putting a dent into the backlog.
    Ms. Norton. That's 266----
    Chief Ramsey. Like we've got money for it right now to be 
able to try to get to the backlog at that pace, and then if you 
add on that the new cases that you're constantly getting, you 
aren't really putting any kind of meaningful dent into the 
backlog. So until we have our own lab and we're able to 
establish priorities, we're able to be more proactive and not 
just deal with those cases where there's a suspect known or in 
custody, then----
    Ms. Norton. What is the suspect number in custody? Is 
that----
    Chief Ramsey. Well, right now--because you've got a limited 
amount of resources, so you're going to do those first----
    Ms. Norton. Yeah, I see.
    Chief Ramsey [continuing]. But you have to get at those 
unknowns----
    Ms. Norton. Oh, God.
    Chief Ramsey [continuing]. So you can identify those 
people. Many of those suspects are already in a data base, but 
unless you actually work the DNA, you won't know it, so they're 
free to commit additional crimes or they're picked up by 
another jurisdiction, and they're in custody for a crime, but 
you can't tie them to the D.C. crime because that evidence has 
not been worked. So they're already out of circulation when 
they could have been charged additionally here, in some cases, 
had we known or had that information been in a data base.
    Ms. Norton. Does this explain why there's so many sex, sex 
assault cases in----
    Chief Ramsey. Well----
    Ms. Norton. I mean, why are there so many of the backlogged 
cases that are sex assault cases?
    Chief Ramsey. Many of the sex assault cases that we have in 
the District are known offenders. There's some relationship 
between victim and offender--date rape, some kind of casual 
acquaintance or whatever. We do have stranger rapes that take 
place as well.
    Ms. Norton. Well, just a moment. If it's an acquaintance, 
you still--is there still the same kind of need for----
    Chief Ramsey. No, not often.
    Ms. Norton. OK.
    Chief Ramsey. Sometimes there's not.
    Ms. Norton. But the sexual assault cases that are in the 
backlog are cases where the assailant is not known?
    Chief Ramsey. Some are. Some are not. We do send them, but 
they're a lower priority because there's an unknown--there's no 
name to it. So with many of our cases, there is evidence there, 
but because you don't know who a suspect is, you don't have a 
named offender, it's a low priority----
    Ms. Norton. And this is one of the most----
    Chief Ramsey [continuing]. But we do send it.
    Ms. Norton. Yeah. The word is out. You're not in court for 
rape--and now I understand the problem--because it may be, 
perhaps, the best example of what forensic could do--forensics 
could do, given the pileup of sexes--sexual assault cases.
    Mr. Wainstein, congratulations on your new appointment. We 
can still call upon you when you're off dealing with terrorism?
    Mr. Wainstein. Please do.
    Ms. Norton. Let me ask you about a concern of mine.
    Some years ago, I was able to get very few criminal 
investigators for your office when I learned--it was some years 
ago. I was--maybe I had been in Congress half as long as I am 
now when I learned that your office didn't have criminal 
investigators.
    What particularly concerned me was to know that they did 
have some, and they found that they simply used MPD officers 
because they've got to use somebody to investigate cases, and 
these officers, of course, have to be in court anyway when 
their case may be called; and in addition, apparently, they 
also are investigating cases that, in comparable jurisdictions, 
are being investigated by dedicated criminal investigators.
    What is the ratio of investigators to attorneys, and, let 
us say, typical jurisdictions with criminal--with a criminal 
jurisdiction like you have, and what is the ratio in the 
District of Columbia of criminal investigators to attorneys?
    Mr. Wainstein. Well, first, if I may, Congresswoman Norton, 
thank you for the congratulations, and let me reiterate, please 
do call on me for anything. I look forward to continuing 
working with the District of Columbia in any way I can, and I--
second, let me thank you, Congresswoman Norton, for your 
efforts in this area over the years. This has been a big issue 
for D.C., for the U.S. Attorney's Office here for many years 
because we are--as I said earlier, we are the D.A.'s Office in 
many respects.
    Ms. Norton. Indeed. Let me ask you: What percentage of your 
cases are typical criminal jurisdiction cases, and what 
percentage of your cases are typical Federal jurisdiction 
cases?
    Mr. Wainstein. Well, I don't know the exact percentage, but 
we have about 22,000 cases that we bring in D.C. Superior 
Court, which are the cases----
    Ms. Norton. How many cases do you bring in Federal court?
    Mr. Wainstein. I don't know the exact number but somewhere, 
maybe, up to 1,000 or so. So it's derived by the the number of 
cases within----
    Ms. Norton. This is why the District of Columbia feels it 
has to have it. It has nothing to do with you, Mr. Wainstein, 
but imagine that you have another home rule anomaly that the 
U.S. attorney for the District of Columbia has no caseload to 
speak of, except our own local caseload, and we're very 
grateful for his work, but the Federal cases here are a 
pittance compared to the lion's share of his caseload, which 
are typical robbery, murder and other State offenses. Go ahead, 
sir.
    Mr. Wainstein. Yes. Well--but our Federal side is quite 
active. We have, I think, somewhere in--80 to 90 assistant U.S. 
attorneys working on the Federal side and about 160-170 working 
on superior court. So in terms of the allocation, the manpower, 
and the amount of work we do on either side, it is significant 
in both areas.
    Also, there's quite a bit of crossover. As you know, we do 
a lot of Federal cases which take on violent crime in the 
streets of D.C. in our Federal prosecutions. But as to the 
investigators, you were very helpful, and we spearheaded the 
effort to get us investigators initially. We had a couple of 
investigators along the way who helped here and there, but we 
didn't have a cadre of investigators we could call on on the 
superior court side of our operation to go out and help----
    Ms. Norton. How many investigators do you have on the 
superior court side?
    Mr. Wainstein. We have about 10 now, and that's thanks to 
your efforts. And the problem that you've identified is that if 
you look at most D.A.'s offices, they have a huge number of 
investigators that the prosecutors rely on to help build the 
cases in the grand jury stage post-arrest, pretrial, so they 
don't have to rely exclusively on the local police department 
or the Federal agencies for that matter. We don't, so we really 
rely on the Metropolitan Police Department. It does very high-
caliber investigative work.
    Ms. Norton. Yeah. Our detectives and our police, but of 
course, they have to be taken from work that would otherwise 
go--would be typical police work. But I'm not criticizing you; 
I just think Congress has not been very much aware of this.
    I do want to say for the record that, when my good friend 
from Virginia, Mr. Wolf, indicated a concern about crime here, 
I brought this matter to his attention. He has been concerned 
about crime, and has been--we were talking, chairman, and he 
and I have been talking on and on about crime even before the 
crime emergency. He happens to be the chair of the subcommittee 
with jurisdiction over U.S. attorneys in the United States, and 
I have asked him to try to include in your appropriation at a 
conference more investigators.
    Imagine what this would mean at a time when the--when D.C. 
has appropriated, yet again, more money. Keep throwing money 
and somehow crime will go down. How long? Do you have to be 
born in the District of Columbia to know that's never worked? 
Keep throwing more money at the police department, and that 
will take care of it.
    The problem with that is the chief, justifying before the 
council, is that these police have to be trained--how long does 
it take, Mr. Ramsey, to train?
    Chief Ramsey. Six months in the academy, another year on 
the street.
    Ms. Norton. So--but what it would mean if we could get the 
Federal Government to do for our U.S. Attorney's Office, what 
it does for every U.S. attorney in the country, would be 
immediately freeing up police to go back to spend more hours on 
the District of Columbia. So I am interested in this. I'm 
particularly interested in this issue, and I'm grateful that my 
good friend from Virginia is also interested, and I do believe 
he's going to help us.
    Mr. Wainstein. Yes. Congresswoman Norton, I appreciate your 
efforts and Chairman Wolf's efforts in that regard. Of course, 
the sticking point always ends up coming down to dollars, and 
the concern that I have, while I would love to have a large 
number of investigators who would help our AUSAs out 
tremendously, the problem is, right now, the whole U.S. 
attorney community is in a very difficult budget situation. We 
have vacancies. I have 11-percent vacancies in my office 
because we don't have the budget to fill those vacancies. Those 
are prosecutors. We have 40 prosecutors down now because of the 
budget situation. So the problem would be, while I'd love to 
have investigators, if it was a zero sum situation where we'd 
have to actually take money out of what is already a tight 
budget to pay for those investigators, it would possibly----
    Ms. Norton. Mr. Wainstein, I don't care where the money 
comes from. You're taking--let me be clear.
    You may need your U.S. attorneys and other parts of your 
budget, but we just had a crime emergency in this city. It's 
very hard for me to hear testimony that the present situation 
should continue, where police are taken off the street to 
investigate cases, and so I don't care where it comes from. 
Although, I think that Frank Wolf will do all that he can to 
leave you whole, but I don't appreciate testimony that says, 
you know, we've got vacancies in our office, so we should 
continue to take from MPD when they--when you just heard 
testimony that it will be 18 months or so before they'll get 
one cop on the street pursuant to a crime emergency that was 
this summer. So I'm going to press--I have one more question on 
these investigators.
    Is it not true that typically an office with your kind of 
jurisdiction has--large cities, for example--has about one 
attorney--sorry--one investigator for every four attorneys? I--
and your office doesn't even come close to that----
    Mr. Wainstein. No. That's absolutely right, Congresswoman 
Norton.
    Ms. Norton [continuing]. And it's also true that you fill 
out--you fill out this need with MPD officers.
    Mr. Wainstein. Absolutely. MPD officers, they do the bulk 
part of our investigations, and----
    Ms. Norton. That's not even a Hobson's choice for us. I 
want you to know, Mr. Wainstein, that's not even a Hobson's 
choice. That's the wrong choice, and we've got to stop that 
choice from happening, and that is my job.
    Mr. Chairman, then I'll come back.
    Chairman Tom Davis. Thank you, Ms. Norton.
    You know, as I said in my opening statement, I understand 
that, if a woman is raped in the District and there is no 
suspect, that the MPD will complete a rape kit but will not 
perform DNA testing on the evidence collected from the kit.
    Is that an accurate understanding, Chief?
    Chief Ramsey. It will be sent for testing, but it's a very 
low priority, so it essentially doesn't get tested. The ones 
that really get tested are the ones that are ready for 
prosecution, if there's a known offender or if there's someone 
who's awaiting trial, and those are the ones that get the 
priority. So, if there's a known suspect, the odds are great. 
If it's not, even though it's submitted, the odds of it ever 
getting tested, unless we start really making serious inroads 
into this backlog, is pretty low.
    So, basically, you're doing the work with the MPD, but 
you're sending them out, and we just don't have the capacity to 
rush that, and generally we can do it now for the backlog; but 
it's when we try to take the cold cases, if you will, and start 
running them to see whether or not we have a suspect that's in 
the data base, and then we can identify them.
    Chairman Tom Davis. Is that essentially correct, Mr. 
DiZinno, given your resources?
    Mr. DiZinno. Yes, that's correct. We rely on MPD to 
prioritize their cases as far as their submissions to us, and 
we address the priority from the order that they're sent in.
    Chairman Tom Davis. I mean, if you were able to get--if you 
had the capacity to do everything, you could probably increase 
your data base. You could find out--I mean, who knows what you 
could match? You could probably close a lot more cases, 
couldn't you?
    Mr. DiZinno. Certainly the uploading of that data into the 
data base would facilitate the investigations.
    Chairman Tom Davis. Mr. Wainstein, we titled this hearing--
and Ms. Norton mentioned it in her opening--``CSI Washington,'' 
and for a reason. We used to hear about the Perry Mason effect 
in the murder trials when the defense needed to have a specific 
alternative suspect. Now we all see the crime scene shows on 
TV, but do we have a CSI effect where the prosecution now must 
have DNA or trace evidence analysis to prove the case?
    Mr. Wainstein. Absolutely. It's amazing to see the impact, 
I'd say, maybe the last 6 or 7 years as these shows of--
television shows have gained popularity, and people see things 
acted out over half an hour or an hour, where the police solve 
the crime. And then, abracadabra, there's this tremendous 
forensic evidence--DNA, fingerprints, gunshot residue, whatever 
it is--and it always is the key to solving the crime. They see 
it on TV, and they expect to see it in the courtroom. And we 
see this and hear this from jurors all the time.
    Chairman Tom Davis. Even if you have a case in every other 
way but you don't have the DNA, this makes it tough?
    Mr. Wainstein. Absolutely. And of course, you know, a juror 
is instructed that if he or she has a reasonable doubt, then 
that person must acquit; and often they see the lack of DNA, 
the lack of fingerprints. Even in a situation where you might 
not, based on the facts of the case, expect to find a 
fingerprint or expect to find DNA, they ask ``Why isn't there 
any DNA? We see that on TV all the time.'' So there's 
absolutely been an impact on our cases.
    Chairman Tom Davis. Then if you don't have the--if you 
don't have the DNA data base, how can you go about identifying 
and tracking serial rapists and murderers?
    Mr. Wainstein. Well, that's a huge problem, and of course, 
that problem arises even more in the investigative stage where, 
you know, you've got a lot of rapists who are serial rapists. 
They don't just do one rape, they do many rapes; and they do 
them throughout various jurisdictions, and unless we can get 
our samples into those data bases and have them match to 
samples from other jurisdictions through CODIS, we're losing 
the opportunity to find out who these serial rapists are and to 
get them off the streets and prevent further crime.
    Chairman Tom Davis. Mr. Reiskin and Chief, I gather, then, 
if you had the new forensics lab, it would eliminate the need 
for such a restrictive policy, and we'd be able to follow 
through on these cases.
    Chief Ramsey. Yes, sir. It would certainly go a long way 
toward certainly eliminating the backlog and also giving us the 
ability, especially when you start to see patterns emerge. One 
of the things that Mr. Wainstein was talking about with serial 
rapists, you may not know who they are, but you certainly can 
recognize the pattern, and you want to be able to put that 
together as quickly as you can to try to identify the person 
responsible and--and those are the cases that need to really 
get bumped up and could be worked a lot quicker than they are 
now.
    Chairman Tom Davis. Mr. Reiskin, I understand that the 
city's been working with Federal officials to help secure 
funding for the consolidated lab facility.
    Can you elaborate a little bit on the city's effort to date 
and what additional congressional appropriations you think 
would be--need to be to make this happen?
    Mr. Reiskin. Yeah. We have submitted requests to the 
President with our annual appropriations, first in 2005 and 
again in 2006. In 2005, we were appropriated, through the D.C. 
Appropriations Subcommittee, $8 million; subsequently in 2006, 
an additional $5 million through D.C. Appropriations. As the 
Congresswoman mentioned, we're awaiting the outcome for 2007. 
There's potentially another $4 million or so.
    In the requests that we will be making to OMB for the 
President's 2008 budget, we will be seeking--and this is 
roughly consistent with what we've projected in the past--$25 
million in fiscal year 2008, $30 million in fiscal 2009 and $25 
million in fiscal 2010. And from our standpoint, we're 
indifferent to the source, whether it's D.C. Appropriations, 
Justice Appropriations. That's the need that we've identified.
    Chairman Tom Davis. Thank you. Let me--I mean, this doesn't 
just serve the needs of D.C. residents, but people from around 
the world who come to this city every day who could become 
victims, certainly my constituents, you know, hundreds of 
thousands who work in this city and who are coming to this city 
every day as well. So this is a national concern. This isn't 
just local, and I think the fact that we have funded it--and we 
can be sure that Mr. Wolf, who couldn't be here today, and Ms. 
Norton and myself will continue to push to at least make sure 
that the Federal part of this continues to be a priority.
    And Ms. Mohammed, we appreciate what you've done organizing 
the other mothers of murder victims to draw attention on the 
unsolved crimes in the city. You put a face on it, and that's 
one of the reasons we're here today.
    Ms. Mohammed. Sir, what I'm trying to ascertain for the 
mothers is the money that's been appropriated is $25 million, 
and exactly how far do we get up to that data? Are we at first 
base or are we just hitting the ball?
    Chairman Tom Davis. Let me just ask Mr. Reiskin.
    From the city's perspective, it's not going to be all 
Federal. There's going to be a city component to this 
obviously, and there's an agreement to fulfill our 
responsibilities, and I'm just asking what that equation is so 
that----
    Mr. Reiskin. Yeah. The overall proposal that we're putting 
forth is roughly two-thirds funding from the District, one-
third from the Federal Government. To date, there's been 
roughly $23 million committed. It's $13 from the Federal side, 
$10 from the District side. That's through fiscal year 2007. 
That may grow depending on how the----
    Chairman Tom Davis. But you're looking at about 80-85 
million from the Federal Government over time, about a third of 
what it's going to cost to----
    Mr. Reiskin. The overall cost of the project is roughly 
$250 million. What we've received to date is allowing us--it 
allowed us to get through the program design--the program 
analysis, the site analysis, the process mapping, and now the 
design contract. The design contract alone is on the order of 
$12 to $15 million. So, with the funds to date, we will have 
the design complete. The construction is really the balance of 
what we----
    Chairman Tom Davis. And that'll be in a larger chunk from--
--
    Mr. Reiskin. Right. The construction would start in fiscal 
year 2008.
    Chairman Tom Davis. Would the city do a bond issue for this 
or would they just pay it out of operating capital or----
    Mr. Reiskin. Right now, it's projected to come out of 
general obligation bonds, but how that would be funded will 
depend on how that capital budget is developed over the next 5 
years.
    Ms. Mohammed. That's the issue. That's the issue for the 
parents, Congressman Davis and Congressman Norton. They can 
filibuster all they want. I've got to go back and tell the 
mothers that we're going to have an erected building, fully 
staffed, and something by what year? Are we talking 2020 or 
what? That's what we want to know. I mean, I want to be alive.
    Chairman Tom Davis. Let me ask that, and then I have a 
followup question to that.
    What's the time period here where we can expect this to be 
up and operating if everything proceeds on time?
    Mr. Reiskin. We've just executed the design contract that's 
a, roughly, 14-month process. Construction would be roughly 2 
years. So it's the end of calendar year 2009 when the facility 
is projected to open.
    Chairman Tom Davis. Let me ask this question. We have a 
backlog of which, I think, Ms. Mohammed and the people she's 
working with are concerned about. What would it take in an 
additional Federal expenditure, let's say, over the next year 
to add personnel or resources at the current FBI crime lab to 
clear up this backlog?
    Mr. DiZinno. I don't know the exact number of the backlog, 
so once we have that exact number, we certainly could make a 
better----
    Chairman Tom Davis. Chief, do you have any idea what the 
backlog is?
    Chief Ramsey. It's roughly about 1,500 sex cases, I'm told, 
and we have identified about 100 old homicide cases, to date, 
that we think could yield some DNA. And certainly there are 
more, but we have a team that's going back in time, looking at 
all these cases, so that could actually----
    Chairman Tom Davis. I appreciate that. That gives me a 
ballpark. I think what our concern and I think what your 
concern would be is, by the time you build this in 2009, some 
of this stuff gets stale, DNA evidence. I mean it's always 
there, but if we could just put forward just maybe an extra 
million or something like that and get it in and clear up this 
backlog, maybe we close some cases and put some people away and 
prevent some other cases from coming up.
    Does that sound reasonable?
    Mr. DiZinno. That's absolutely true, Mr. Chairman.
    Chairman Tom Davis. What I'm asking is, given what the 
Chief has said the backlog may be--you don't have to do the 
math here today----
    Mr. DiZinno. Right.
    Chairman Tom Davis [continuing]. Because--but if you could 
get back to the committee and then we'll get back with Mr. Wolf 
and see what that difference is and what it might be and what 
an extra hundred thousand, million, whatever it is, would do to 
clear up this backlog just for the mothers and the victims and 
the families and everything else. Even if we could just clear 
the backlog up right now, it would make things a lot easier 
while we're building that.
    Ms. Mohammed, do you agree with that?
    Ms. Mohammed. I think that's fine.
    I want to say just one last thing on behalf of mothers and 
families of murdered victims. Doris Moore's sister--she's a 
doctor at George Washington Hospital--was killed in 1969. Her 
murder is still open on the books. The Chief knows we have 
almost 5,000 unsolved murders in the District of Columbia. Mark 
Sitz' father was killed in 1977. He's a teacher in Prince 
George's County. When I leave here today, they're going to ask 
me whether or not, you know, the DNA that was collected during 
that particular time--which was eons ago--whether or not it 
will be relevant, whether or not it will be used, or what kind 
of hope do they have before they die? And I don't know of these 
thousand cases--this 1,000 cases and the 300, or whether or not 
the DNA is still relevant or old enough, but I want to be able 
to tell people who have been waiting since the sixties and the 
seventies that there's still hope and that people still care, 
because their hearts are still burning because these murders 
remain unsolved.
    Chairman Tom Davis. Well, that's correct. And look, we're 
not sure, even if you process the DNA, you're going to solve 
the case; but it puts you closer to it, and without it, it's 
impossible.
    So, Chief, if we could just go back and take a look at the 
backlog, whatever years it goes back, and Ms. Norton, it seems 
to me, if we could put a little bit of money up front to clear 
the pending cases while we're looking at this, then we could 
make some headway and get to some of these while the evidence 
is still a little bit fresh, because waiting 2 or 3 more years 
makes these cases more difficult, wouldn't you agree, to solve?
    Mr. DiZinno. Yes, sir. Mr. Chairman, we will work with MPD 
to provide that information.
    Chairman Tom Davis. Well, get that information to us. We 
will share it with the other relevant congressional committees 
and just see if there's anything we might be able to do to try 
to clear up the background. It seems to me Ms. Mohammed and 
some of the people that she's worked with are lighting a fire 
in this city for people who say, ``Look, give us the resources 
and we will try to work with the city to do that,'' and Chief, 
we'll try to make your job a little bit easier because I know 
it's got to be as frustrating for you as it is for the victims.
    Chief Ramsey. Yes, sir, it is. And I appreciate all of your 
help in not only getting the lab but in dealing with issues 
like the backlog and so forth, and we'll do the very best we 
can to push this through as fast as we can so that we can, one 
way or the other at least, let these families know whether or 
not it yielded any results or not, and we're obligated to do 
that.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, I very much appreciate your line 
of questioning because it's in the nature of trying to solve 
the problem because, in light of what the chairman said, if I 
go back to the testimony with you, Mr. Chief Ramsey, we talked 
about the turnaround times above average. Then I would take it 
that means that you are closing in on the backlog cases, and 
you're closing cases on a timely basis that come in and have 
the ordinary priority; for example, somebody--you've got a 
suspect.
    Is that what that means? What does it mean about processing 
a criminal? Are you all just lumping all of it together and 
coming up with an average processing, I mean with an above-
average processing time? Mr. DiZinno.
    Mr. DiZinno. [No response.]
    Chief Ramsey. Yeah, maybe; so because I think you're 
talking about the reduction----
    Ms. Norton. Oh, I'm sorry. I'm still trying to find out--
see, what the chairman is talking about--I had this very same 
experience when I chaired the AOC. There was this humongous 
backlog, and the first thing to do is to separate out the 
backlog from the new cases or else you just feed the 
backlogging, and you never get out of it. Then, when the 
backlog is gone and you no longer are building backlog, you're 
on time. And I can't figure out whether the process the 
chairman is suggesting might be used to work here; and it would 
if, for example, you are able, with this new personnel and with 
the MOU, to turn around today in a fairly timely way, and then 
we wouldn't at least be building the kind of backlog we were 
before. And that's what I'm trying to get at.
    Mr. DiZinno. Yes, Congresswoman Norton, I think there's two 
separate issues, as you said: eliminating the backlog and then 
providing timely service for cases that are submitted. 
Depending on the backlog, the size of the backlog, and the 
number of new cases submitted versus the funding and resources 
provided, we would certainly work with MPD to, No. 1, try to 
eliminate their backlog and, No. 2, attempt to provide a more 
timely response to the current cases that they would submit.
    Ms. Norton. They said it's more and more timely, 
apparently, with the new efficiencies. Now, let me make sure I 
have these--this backlog.
    I think Congress would be very sympathetic with the notion 
that all of these cases or so many of these cases are 
disproportionately sex cases, sex crime cases, and that means 
if you commit a sex crime in the District of Columbia, you 
probably don't have to worry about it, or at least many of you 
do not have to worry about it given the kind of evidence that's 
necessary. 1,500 backlogged sex crime cases, and did you say 
100 cold homicide cases, Chief?
    Chief Ramsey. Right now, we have 100 that we've identified 
that could possibly yield some meaningful DNA. Not all homicide 
cases have DNA from the offender. A lot of the evidence is from 
the victim, not from the offender. So you have to go through 
these, and it's not guaranteed that you'll wind up with 
anything that will lead you to an offender. But these are ones 
that we've identified that would be worth submitting to see 
whether or not we could yield, but I think it--yield anything 
useful--but I think it's important to clarify that. Because of 
television and the way in which people kind of view this is, 
they think that in every single case you're going to be able to 
identify a suspect through DNA, and that's simply just not 
true, so--but it will make a huge difference, a huge difference 
in our ability to solve crime.
    Ms. Norton. And at least it would mean that we're not doing 
the same old thing we've been doing ever since I was a child, 
just get more--more policemen and then looking to you and 
saying, ``Well, how come you haven't solved it? You've got more 
policemen.'' what is the definition of ``stupidity?'' You keep 
doing the same thing and hope and expect to get a different 
result. More police, as important as they are, must not be the 
answer in the District of Columbia if you compare the number of 
police here to other jurisdictions.
    I congratulate you, Ms. Mohammed, on your questions. I'll 
say to the District of Columbia we have--what was the total, 
Mr. Reiskin? What's the total amount the Federal Government has 
come forward with now and the total amount D.C. has come 
forward with?
    Mr. Reiskin. To date, we have $13 million from the Federal 
Government, with $4 million pending, and $10 million from the 
District government.
    Ms. Norton. That's disgraceful. That's just disgraceful. 
That means the city also has not given the priority. The city 
needs all of those involved, but----
    Mr. Reiskin. If I could clarify----
    Ms. Norton. Here's the Federal Government. It's not even 
our crime lab, and we have a--in this climate, we've come up 
with more money than the District of Columbia itself has 
appropriated? There's something wrong with that picture.
    Mr. Reiskin. If I could clarify, in the most recent capital 
budget that was sent to Congress, there was another $150 
million of local capital funds identified for this project.
    Ms. Norton. So you are testifying that you all are now 
appropriating in this year's budget $150 million, and it's 
already passed the council?
    Mr. Reiskin. In the capital budget, there's proposed 
capital spending for the outyears beyond fiscal year 2007. In 
that proposed spending which has been approved by the council, 
sent to Congress, is $150 million, $75 million each in fiscal 
years 2008 and 2009.
    Ms. Norton. It's going to be very difficult for me to 
continue to come back and get $5 million chunks of money from 
the Federal Government unless I'm finally able to say here's 
what the District is putting up for its own forensic lab. So I 
just want to say that for the record, because I regard this as 
the only new idea. This very old idea is the only new idea I've 
heard from----
    Ms. Mohammed. Congresswoman Norton.
    Ms. Norton. Yes.
    Ms. Mohammed. Please excuse me; that if I recall, we were 
told at one point that the--Mayor Williams was coming up here 
to request $150 million for the 2007 budget for the crime lab, 
but by the time he got here, it had changed to a new downtown 
library, and even the Chief spoke to that. We were just very 
disheartened as parents, but let me just give you all a quick 
real example.
    My son Imtiaz Mohammed was killed on October 28, 2004. The 
person was finally arrested after he killed another victim in 
July--or was it June--2005. When he was arrested, at the 
arraignment, the judge asked that--or the magistrate or 
whatever they called him--asked that DNA samples be sent and 
brought back within 30 days. It just came back 2 weeks ago. So, 
so much for----
    Ms. Norton. I think that says it all.
    Ms. Mohammed [continuing]. Speed.
    Ms. Norton. Well, your own cross-examination, I must say, 
Ms. Mohammed, has gotten from Mr. Reiskin an ending target date 
of 2009, is that right--a target to completely--to complete the 
building of a forensic lab?
    Mr. Reiskin. That's correct. It will be the end of calendar 
year 2009.
    Ms. Norton. The end of calendar year 2009.
    I just think that with a city that is boasting--what is 
it--all kinds of surpluses, I can understand why, in a real 
sense, you know, what's immediately in people's faces gets 
surpluses, but as I said in my opening statement, analytically, 
after decades of throwing more money at police, you would have 
thought people would say, ``Well, wait a minute. Let's get 
fresh eyes and look at this. Is there something we aren't 
doing?'' And what bothers me is the notion of doing the same 
thing. I have no idea if this bill will, in fact, have the 
desired effect, but I can't believe that it is preferable to 
keep doing the same thing.
    I have only a couple more questions. The chairman wants to 
get out of here. He's been very--he has been very, very 
gracious.
    We have not said anything about the effect of forensics on 
civil matters. Somebody has been--has had an accident. Someone 
has another civil matter where benefits may be involved, but 
forensics--forensic evidence is necessary in order to get the 
benefits for the survivors.
    How often does that occur, and how do we deal with that 
need for forensic evidence?
    Mr. Wainstein. I'll go ahead and just step up. I'm not----
    Ms. Norton. Does the FBI have anything to do with it? Who 
does it?
    Mr. Wainstein. The concern of our obligation----
    Ms. Norton. You all don't deal with anything civil.
    Mr. DiZinno. Correct. The FBI only performs forensic 
analysis for criminal casework.
    Ms. Norton. Does D.C. have to go to private forensic 
laboratories for that kind of analysis even if it's a civil 
matter in court?
    Mr. Wainstein. We handle civil matters on the Federal side. 
It might be----
    Ms. Norton. I can't hear you, sir.
    Mr. Wainstein. Oh, I'm sorry. My apologies.
    We handle civil matters in Federal court, but the A.G.'s 
Office would handle a lot of the civil matters where that might 
come up, and maybe you could put the question to Mr. 
Spagnoletti about that.
    Ms. Norton. On the limit on the number of evidence--and I 
can understand that. Sometimes, I'm sure, if you had your own 
forensic lab, there would be a limit on the number of pieces of 
evidence, but I'm sure you'd make that choice, and I'm sure you 
prioritize the kind of evidence you need in an informed 
fashion.
    Is there a formula, or do you look at the case and then 
decide what kind of evidence, since you can only do, what is 
it, four or five pieces? What kind of evidence do you need? How 
is that--how is that duty performed, and how is that decision 
made?
    Chief Ramsey. Yes. I believe here--and of course I have my 
person who runs my forensic section behind me, so I'll ask him 
to tap me on the shoulder if I go astray here. But because you 
can recover numerous items at any scene, when you take a look 
and review the evidence, you really try to look at what do you 
think might have some kind of, you know, DNA that could be 
recovered, and that's a decision that's made by those that 
process the scene.
    Now, that leads to another point that I just want to kind 
of get on the record. Building a lab is one thing. Maintaining 
it and continuing to have the proper training and so forth so 
that people stay at an acceptable level is another. That's got 
to also include people assigned to the mobile crime or crime 
scene investigation section, because how they process the 
scene, how they collect the evidence initially is important. 
There's nothing they can do with it in any lab if they screw up 
the crime scene. It makes it very, very difficult.
    So the training for our people has to constantly be 
budgeted so that we can make sure those people that we've 
charged with that responsibility process that scene 
appropriately, package it appropriately, store it 
appropriately, all those kinds of things that are needed so 
that the people in the lab have a chance of getting useful 
evidence.
    So I just wanted to throw that out there because that's a 
huge piece that sometimes gets overlooked.
    Ms. Norton. Thank you very much. That's very important. 
Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Ms. Norton, I thank you very much. I 
want to thank everybody for being involved with this.
    Mr. DiZinno, you're going to confer with Chief Ramsey and 
maybe get some ballpark in terms of clearing this backlog. I 
think--you know, just so many of us see that you don't want to 
start off in a hole from day one, and maybe some resources 
could be directed in that direction. I know you'd like to see 
that.
    Mr. DiZinno. Yes.
    Chairman Tom Davis. Thank you very much. Again, 
congratulations, Mr. Wainstein, on your promotion.
    The hearing's adjourned.
    [Whereupon, at 11:48 a.m., the committee was adjourned.]
    [The prepared statements of Hon. Elijah E. Cummings and 
Hon. C.A. Dutch Ruppersberger follow:]

[GRAPHIC] [TIFF OMITTED] T0327.031

[GRAPHIC] [TIFF OMITTED] T0327.032

[GRAPHIC] [TIFF OMITTED] T0327.006

[GRAPHIC] [TIFF OMITTED] T0327.007

[GRAPHIC] [TIFF OMITTED] T0327.008

[GRAPHIC] [TIFF OMITTED] T0327.033

                                 <all>

</pre></body></html>
